                                                         ADVISORY




RECOVERY OVERSIGHT ADVISORY
Bureau of Reclamation’s Use of Memoranda of Agreements




Report No.: RO-J-USBR-063-2011                           January 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                    JAN 20 2011
Memorandum

To:            Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:
               Assistant In    '~or Ge~:a4rY                  Oversight

Subject:       Recovery Oversight Advisory - Bureau of Reclamation' s Use of Memoranda of
               Agreements
               Report No. RO-J-USBR-063-2011

       This advisory, regarding the Bureau of Reclamation' s (USBR) use of Memoranda of
Agreements (MOA) to provide four California water districts with pumps, pipelines, and other
associated equipment, is part of our ongoing effort to oversee and ensure the accountability of
funding appropriated to the U.S. Department of the Interior (DOl) in the American Recovery and
Reinvestment Act of2009 (Recovery Act).

       USBR furnished Government property to water districts through MOAs. A USBR staff
member raised a concern that USBR was giving Government property away through MOAs, and
that MOAs are not appropriate vehicles for the transfer of this property.

      We reviewed the MOAs issued to the four water districts. USBR cited the Reclamation
States Emergency Drought Relief Act (EDRA) of 1991 as the authority to provide the property,
purchased with Recovery Act funds, to the water districts. EDRA authorizes the DOl Secretary
to undertake construction, management, and conservation activities that will mitigate losses and
damages resulting from drought conditions. Any construction activities, except for the drilling of
wells, are limited to temporary facilities.

       The USBR Mid-Pacific Region Drought Coordinator explained how the provision of
pipes and pumps to the water districts complied with the requirements of the EDRA. The
coordinator explained that the pipes and pumps were purchased by USBR and are temporarily
provided to the various water districts.

        Our review determined that MOAs are appropriate vehicles to provide the property on a
temporary basis to address drought concerns. An executive agency is required to use a
procurement contract to acquire property or services for the direct benefit or use of the
Government, and grants or cooperative agreements are used to transfer money, property,
services, or anything of value to eligible entities to accomplish a public purpose of support or




                               Recovery Oversight Office I Washington, DC
stimulation authorized by Federal statute. 1 A review of the MOAs confirmed that the property
was not being given to the water districts and required the return of the equipment.

        We will post this advisory on our Web site (www.doioig.gov/recovery/) and
Recovery.gov. Information contained in this memorandum may also be included in our
semiannual reports to Congress. We performed our work in accordance with the Quality
Standards for Investigations adopted by the Council of the Inspectors General on Integrity and
Efficiency. Please contact me if you have any questions.

cc:      Deputy Secretary, U.S. Department of the Interior
         Director, Office of Executive Secretariat and Regulatory Affairs
         Commissioner, Bureau of Reclamation
         Assistant Secretary for Policy, Management and Budget
         Director, Office of Acquisition and Property Management
         Acting Director, Office of Financial Management
         Recovery Coordinator, Bureau of Reclamation
         Departmental GAO/ OIG Audit Liaison
         Audit Liaison, Office of the Secretary
         Audit Liaison, Bureau of Reclamation




1
    31 U.S.C. § 6301-6308; 505 DM 2.9.

                                                                                                 2
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
